No.

IN THE
SUPREME COURT OF THE UNITED STATES

Stanley Renard Tilley, Sr. Pro 5e PETITIONER

(Your Name)
VS.

Bob’by Lumpkin, Director, Texas Department of Criminal Justice
Correctional Institutions Divisions

— RESPONDENT(S)

PROOF OF SERVICE
Stanley Renard Tilley, Sr.

, do swear or declare that on this date,
{_.$ o( (_____,
20RL,
as
required
by Supreme Court Rule 29 I have
*
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
United States Court of Appeals for the Fifth Circuit
6D0 5. Maestri Place, Suite 115
New Orleans, LA 701 3D

I declare under penalty of perjury that the foregoing is true and correct.
Executed on pt i^jt 1,^4 f

, 20.2/.

14

